Report No. D-2008-031          December 10, 2007




       Standard Accounting and Reporting
        System Compliance with Defense
        Business Transformation System
              Certification Criteria
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

CCA                   Clinger-Cohen Act
CIO                   Chief Information Officer
CONOPS                Concept of Operations
DBSMC                 Defense Business Systems Management Committee
DFAS                  Defense Finance and Accounting Service
DITSCAP               DoD Information Technology Security Certification and
                         Accreditation Process
ESG                   Executive Steering Group
FFMIA                 Federal Financial Management Improvement Act
IRB                   Investment Review Board
IRWG                  Investment Review Working Group
NDAA                  National Defense Authorization Act
OSD                   Office of the Secretary of Defense
STARS                 Standard Accounting and Reporting System
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
                              INSPECTOR GENERAL

                            DEPARTMENT OF DEFENSE

                             400 ARMY NAVY DRIVE

                        ARLINGTON, VIRGINIA 22202-4704




                                                                       December 10,2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Report on Standard Accounting and Reporting System Compliance with
         Defense Business Transformation System Certification Criteria
         (Report No. D-2008-031)


        We are providing this report for information and use. No written response to this
report was required and none was received. Therefore, we are publishing this report in
final form.

        We appreciate the cOUltesies extended to the staff. Questions should be directed
to Mr. Edward A. Blair at (216) 706-0074, ext. 226 or Mr. Gregory M. Mennetti
at (216) 706-0074, ext. 267. The team members are listed inside the back cover. See
Appendix B for the report distribution.




                            Assistant Inspector General and Director
                              Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-031                                                 December 10, 2007
   (Project No. D2006-D000FC-0223.000)

      Standard Accounting and Reporting System Compliance with 

                  Defense Business Transformation 

                    System Certification Criteria 


                                 Executive Summary 


Who Should Read This Report and Why? DoD personnel who prepare, review,
certify, and approve Defense business system investments will find this report of interest.
It addresses the Under Secretary of Defense for Acquisition, Technology, and Logistics
and Defense Finance and Accounting Service policies and procedures used to certify and
approve Defense business system modernizations in excess of $1 million. Specifically,
this report discusses the procedures used to approve the FY 2006 modernization efforts
for the Standard Accounting and Reporting System (STARS).

Background. The Deputy Under Secretary of Defense for Business Transformation
requested that we review DoD Component compliance with the Defense Business
Transformation System Certification Criteria. This report is one in a series and discusses
compliance of the STARS with the Defense Business Transformation System
Certification Criteria. Additional reports discuss other business systems’ compliance.

The “National Defense Authorization Act for Fiscal Year 2005” states that funds
appropriated for Defense business system modernizations in excess of $1 million may not
be obligated unless certified by the Designated Approving Authority and approved by the
Defense Business Systems Management Committee. To comply with the National
Defense Authorization Act, the Defense Business Systems Management Committee
issued the Investment Review Board Concept of Operations. The Investment Review
Board Concept of Operations provides guidance on certifying Defense business system
investments in excess of $1 million, which requires review and approval by the Office of
the Secretary of Defense.

STARS is a migratory system for the Department of the Navy’s general fund. STARS
supports 58 individual appropriations and evolved from the consolidation of 28 Navy
accounting systems.

Results. The Under Secretary of Defense for Acquisition, Technology, and Logistics and
the Defense Finance and Accounting Service did not implement sufficient controls for
preparing, supporting, pre-certifying, and approving the FY 2006 STARS modernization
package. The preparation controls had conflicting submission guidance, which made it
difficult for the STARS Program Office to determine what was required for the
modernization package. The Defense Finance Accounting Service did not perform a
validation of compliance with certification criteria. In addition, STARS was not
compliant with the Clinger-Cohen Act of 1996 and the Federal Financial Management
Improvement Act. As a result, the STARS modernization package was pre-certified by
the Defense Finance and Accounting Service and approved for funding by the Defense
Business Systems Management Committee without being compliant with all applicable
Federal laws, which increases the risk of inefficient and ineffective use of resources. To
mitigate this risk, the Under Secretary of Defense for Acquisition, Technology, and
Logistics and the Defense Finance and Accounting Service should comply with Federal
regulations and develop and implement consistent guidance for preparing, validating,
pre-certifying, and approving modernization packages. See the Finding section of the
report for a detailed discussion of the results.

Management Comments and Audit Response. The Under Secretary of Defense for
Acquisition, Technology, and Logistics and the Director, Defense Finance and
Accounting Service provided comments on DoD Office of Inspector General Report No.
D-2008-006, “Report on Automated Time Attendance and Production System
Compliance with Defense Business Transformation System Certification Criteria,”
October 26, 2007. Those comments addressed the issues outlined in this report.

See DoD Office of Inspector General Report No. D-2008-006 for a discussion of
management comments and audit response.




                                             ii
Table of Contents 


Executive Summary                          i


Background                                 1


Objectives                                 3


Review of Internal Controls                4



Finding
     Investment Review Process Controls    5


Appendixes
     A. Scope and Methodology              9

     B. Report Distribution               11 

Background 

    The Deputy Under Secretary of Defense (Business Transformation) requested that
    we review DoD Component compliance with the Defense Business
    Transformation System Certification Criteria. This report is one in a series and
    discusses the compliance of the Standard Accounting and Reporting System
    (STARS) with the Defense Business Transformation System Certification
    Criteria. Additional reports discuss other business systems’ compliance.

    National Defense Authorization Act. On October 28, 2004, Congress passed
    Public Law 108-375, “Ronald W. Reagan National Defense Authorization Act for
    Fiscal Year 2005” (NDAA). Section 2222 of the NDAA states that funds
    appropriated for Defense business modernizations in excess of $1 million may not
    be obligated unless the Designated Approving Authority certifies the
    modernization to the Defense Business Systems Management Committee
    (DBSMC) and the DBSMC approves the certification. The NDAA defines
    business system modernization as “the acquisition or development of a new
    defense business system or any significant modification or enhancement of an
    existing system.” In addition, the NDAA required the Secretary of Defense to
    delegate the review, approval, and oversight of the Defense business systems to
    the following four Office of the Secretary of Defense (OSD) approval authorities:

           •	 Under Secretary of Defense for Acquisition, Technology, and
              Logistics,

           •	 Under Secretary of Defense (Comptroller),

           •	 Under Secretary of Defense for Personnel and Readiness, and

           •	 Assistant Secretary of Defense for Networks and Information
              Integration and Chief Information Officer of the Department of
              Defense.

    Each approving authority is required to establish an investment review process
    that periodically (at least annually) reviews all business system investments. In
    addition, the process should include an Investment Review Board (IRB) review
    and approval for each Defense business system.

    Section 186 of the NDAA directed the Secretary of Defense to establish the
    DBSMC. The DBSMC is responsible for coordinating Defense business system
    modernization initiatives to maximize benefits and minimize costs, and to ensure
    that funds are obligated for Defense business systems in a manner consistent with
    section 2222 of the NDAA.

    Investment Review Board Concept of Operations. On June 2, 2005, the
    DBSMC issued the “Investment Review Process Overview and Concept of
    Operations for Investment Review Boards” (CONOPS). The CONOPS integrates
    policies, specifies responsibilities, and establishes processes to comply with
    section 2222 of the NDAA. It outlines the investment review process that all



                                         1

           IRBs, Components, chief information officers (CIO), and program managers
           should follow if they have responsibility for business system investments.

           The CONOPS introduces a structured investment review and certification process
           that includes determining review and certification requirements, Component
           review, and OSD-level review and certification. The CONOPS identifies three
           levels of certification review, known as “tiers.” Tier certification processes are
           established based on the program scope, cost, and complexity. The tier process
           also provides flexibility if the program has been designated as a special interest
           program. 1 The CONOPS defines the following tier certification processes:

                     •	 Tier 1 IRB: certification processes that apply to major automated
                        information systems or programs (currently defined as those which
                        cost at least $32 million);

                     •	 Tier 2 IRB: certification processes that apply to modernizations and
                        investments in excess of $10 million to less than the major automated
                        information system threshold, or those designated as special interest;
                        and

                     •	 Tier 3 IRB: certification processes that apply to those modernizations
                        and investments in excess of $1 million to less than $10 million.

           The CONOPS also provides guidance on preparing, reviewing, and certifying
           Defense business system investments in excess of $1 million, which require an
           OSD-level review. Defense business system investments less than $1 million do
           not require an OSD-level review and approval, unless designated as a special
           interest program. Instead, investments less than $1 million require a
           Component-level review and approval process. 2 The CONOPS requires
           Components to establish their own governance structures for investment review to
           support their transformation initiatives. The Component investment review
           processes should be consistent with the NDAA and the CONOPS.

           Defense Finance and Accounting Service Investment Review Process. The
           Defense Finance and Accounting Service (DFAS) developed a Component-level
           review and approval process. For FY 2006 modernization investments in excess
           of $1 million, DFAS developed and used workbooks that were modeled after the
           standard set of IRB criteria outlined in the CONOPS. The workbooks contained
           system-specific questions, and system managers were required to certify if their
           automated systems were aligned with applicable policies, laws, and regulations.
           Specifically, system managers were required to indicate if their system was
           compliant with the DoD certification criteria, which includes the Clinger-Cohen
           Act of 1996 (CCA); the DoD Information Technology Security Certification and
           Accreditation Process (DITSCAP); the Federal Financial Management
           Improvement Act (FFMIA); and the Business Enterprise Architecture.

1
    Special interest is based on technological complexity, Congressional interest, or program criticality to the
    achievement of a capability or set of capabilities. Special interest is also based on whether the program is
    a joint program or whether the resources committed to the program are substantial.
2
    The process is referred to as a “Tier 4” process.



                                                        2

    Clinger-Cohen Act of 1996. The CCA establishes a top-down restructuring of
    Federal information technology acquisition programs. The goal of the CCA is to
    improve the acquisition and management of Federal information technology
    programs. The CCA requires the establishment of an efficient and effective
    information technology program for the Federal Government.

    DoD Information Technology Security Certification and Accreditation
    Process. The DITSCAP establishes a standard Department-wide process, set of
    activities, general tasks, and management structure to certify and accredit
    information systems and maintain the information assurance and security posture
    of the Defense information infrastructure throughout the life cycle of each system.
    The accreditation process is a formal declaration by the Designated Approving
    Authority that an information system is approved to operate in a particular
    security mode using a prescribed set of safeguards at an acceptable level of risk.

    Federal Financial Management Improvement Act. The FFMIA was created
    in 1996 to ensure consistent accounting by an agency from one fiscal year to the
    next. FFMIA also provides uniform accounting standards throughout the Federal
    Government. Federal financial data, including the full costs of Federal programs
    and activities, are required so that programs and activities can be considered
    based on their full costs and merits.

    Standard Accounting and Reporting System. STARS is a general fund
    accounting and reporting system that accounts for more than $750 billion in
    appropriated funds for the Navy, Marine Corps, Air Force, and Defense Agencies.
    The receipt and use of these funds are recorded at the detail transaction level.
    These detail transactions populate United States Standard General Ledger account
    balances and are reflected on trial balance reports that are used to prepare major
    command and departmental audited financial statements, in addition to other
    fiduciary reports. STARS supports 58 individual appropriations and evolved
    from the consolidation of 28 Navy accounting systems since its inception.

    DFAS submitted two Tier 3 certification packages for STARS in FY 2006. The
    first package received DBSMC approval for $1.8 million in capital modernization
    cost dollars on August 31, 2005. The DBSMC approved the first package prior to
    the CONOPS implementation date of October 1, 2005, and it was not subject to
    the IRB approval process. On March 23, 2006, the second package received IRB
    approval for $950,000 in capital modernization dollars. Even though the second
    package was approved for less than $1 million, DFAS submitted it as a Tier 3
    package because the total amount submitted for FY 2006 was $2.75 million.


Objectives
    Our overall audit objective was to determine whether STARS was properly
    certified and accredited in accordance with the Defense Business Transformation
    System Certification Criteria. Specifically, we determined if STARS complied
    with the investment review process. See Appendix A for a discussion of the
    scope and methodology.



                                         3

Review of Internal Controls 

     We identified material internal control weaknesses for the Under Secretary of
     Defense for Acquisition, Technology, and Logistics and Defense Finance and
     Accounting Service as defined by DoD Instruction 5010.40, “Managers’ Internal
     Control (MIC) Program Procedures,” January 4, 2006. The Under Secretary of
     Defense for Acquisition, Technology, and Logistics and Defense Finance and
     Accounting Service did not have adequate internal controls for preparing,
     validating, pre-certifying, and approving the STARS modernization package. .
     Although we identified material weaknesses, we are making no recommendations
     because DoD Office of Inspector General Report No. D-2008-006, “Report on
     Automated Time Attendance and Production System Compliance with Defense
     Business Transformation System Certification Criteria,” October 26, 2007,
     contains recommendations to the Under Secretary of Defense for Acquisition,
     Technology, and Logistics and Defense Finance and Accounting Service that
     should correct the material weaknesses identified in this report. A copy of this
     report will be sent to the senior official in charge of internal controls for the
     Under Secretary of Defense for Acquisition, Technology, and Logistics and
     Defense Finance and Accounting Service.




                                         4

    Investment Review Process Controls
 

           Investment review process controls over the system modernization
           package were not adequate. The Under Secretary of Defense for
           Acquisition, Technology, and Logistics (USD[AT&L]) and DFAS did not
           implement sufficient controls for preparing, validating, pre-certifying, and
           approving the STARS modernization package. The DFAS preparation
           and validation controls were ineffective because the investment review
           guidance issued by DFAS and DoD was insufficient and inconsistent. The
           USD(AT&L) approval and DFAS pre-certification controls were
           ineffective because USD(AT&L) and DFAS did not follow DoD
           certification guidance. Additionally, DoD guidance did not specify the
           consequences that noncompliance with the IRB criteria would have on the
           system modernization package approval process. As a result, the STARS
           modernization package was pre-certified and approved for funding
           without meeting all of the DoD certification criteria.


DFAS Investment Review Process
    On September 2, 2005, DFAS established its own investment review process and
    governance structure to support Component transformation initiatives and to
    comply with CONOPS. DFAS designated the CIO as the headquarters-level
    authority accountable for business system investments. The CIO acts as the
    Pre-Certification Authority for all business system modernizations or
    enhancements up to $10 million. For modernizations in excess of $1 million, the
    CIO pre-certifies and submits the investment proposals to the IRB.

    DFAS Executive Steering Group. The Executive Steering Group (ESG) is the
    agency’s primary, executive-level, decision-making body that reports to the
    Director of DFAS. Among many other responsibilities, the ESG oversees the
    DFAS portfolio management initiatives. In doing so, the ESG serves as the
    Component-level IRB for DFAS. It reviews and approves investment proposals
    based on decision criteria such as the CONOPS and internal DFAS policies and
    procedures.

    DFAS Investment Review Working Group. The ESG established the DFAS
    Information Technology Investment Review Working Group (IRWG) to conduct
    due diligence reviews and provide input on information technology portfolio and
    investment issues to the ESG. It is chaired by the Deputy CIO and is composed
    of a representative from each DFAS directorate or business line. The IRWG
    coordinates and resolves investment issues that arise in the portfolio management
    processes. It also reviews and recommends approved investment proposals to the
    ESG.

    DFAS IRB Process for Investments in excess of $1 Million. The IRWG assists
    in overseeing the DFAS Investment Review Process. Prior to obligating funds for
    modernizations and enhancements estimated to cost more than $1 million, DFAS
    required that system managers complete an IRB workbook providing system
    information. System managers were required to answer system-related questions


                                        5

    and provide supplemental documents such as architecture diagrams. The IRWG
    reviewed the workbooks and supplemental materials, and if the investment
    proposals were satisfactory, the IRWG recommended certification to the CIO.
    The CIO would then pre-certify and recommend approval and certification of the
    investment proposal to the IRB and the DBSMC.


System Modernization Package Preparation Controls
    DFAS did not have sufficient controls over their process for preparing the STARS
    system modernization package. The CONOPS and the DoD Business Systems
    Investment Review Proposal Submission Guideline (“DoD Guideline”),
    July 15, 2005, required different documents to be submitted for system
    modernization packages. The CONOPS and DoD Guidance agreed on only one
    of seven required documents, as shown in Table 1.

                   Table 1. Required Documentation for a Tier 3 System
                                 Modernization Package
                                                                      Guidance
     Document Title                                              CONOPS DoD Guideline
     POC Information for Component Pre-Certification Authority      R          A
     Component Pre-Certification Letter                             R          R
     Certification Template                                         R          A
     Defense Business System Certification Dashboard               NR          R
     Component Economic Viability Analysis                          R          A
     Independent Cost Review Authority Validation Letter           NR          A
     Defense Business Systems Investment Summary                   NR          R
     R = Required by guidance
     NR = Not required by guidance
     A = To be made available upon request



    According to the CONOPS, all IRBs are required to provide consistent guidance
    to the Component Pre-Certification Authorities. The DFAS process for preparing
    system modernization packages did not have sufficient controls in place to ensure
    adequate submission documentation because USD(AT&L) did not provide
    consistent guidance to its Components. As a result, the conflicting submission
    guidance made it difficult for the STARS Program Office to clearly determine
    what was required for the modernization package. For example, the Defense
    Business System Certification Dashboard is not required by CONOPS, but it is
    required by the DoD Guideline. To alleviate confusion, USD(AT&L) should
    revise and issue consistent guidance.


System Modernization Package Validation Controls
    DFAS controls over validating the system modernization package did not ensure
    compliance with laws and regulations. Specifically, DFAS did not have
    documentation to support a validation for CCA, DITSCAP, and Business
    Enterprise Architecture compliance, although DFAS stated that STARS was
    compliant. STARS system management did not have documentation to support


                                             6

     compliance with CCA for FY 2006, and the IRWG did not perform a validation
     of CCA compliance.

     To improve the process for FY 2007, DFAS began requiring program managers to
     complete the CCA compliance table found in DoD Instruction 5000.2, “Operation
     of the Defense Acquisition System,” May 12, 2003, which lists 11 requirements
     for CCA compliance. In addition, Component CIOs should use the acquisition
     documents identified in the “CCA Compliance Table” to assess CCA compliance.

     We reviewed the acquisition documents referenced in the CCA compliance table
     for FY 2007 to determine whether the documents referenced in the table
     supported CCA compliance. DFAS did not provide supporting documentation for
     two of the six sampled compliance table documents. As a result, the FY 2007
     CCA compliance documentation did not provide auditable evidence that STARS
     was CCA-compliant. DFAS provided support to show that STARS was
     compliant with DITSCAP; however, no evidence was available to show that the
     IRWG performed a validation of the compliance.

     The CONOPS requires a Component-level review of compliance with IRB
     criteria. Controls over the validation process for compliance with laws and
     regulations were not adequate because DFAS lacked guidance for validating and
     documenting compliance with applicable criteria. As a result, DFAS pre-certified
     the STARS modernization package for funding without the package meeting all
     certification criteria. Without performing sufficient validation, there is an
     increased risk that systems could receive funding without meeting applicable
     certification criteria. To mitigate this risk, DFAS should develop and implement
     guidance that requires a validation and documentation to show compliance with
     IRB criteria. DFAS should also specify the consequences that noncompliance
     with the DFAS Investment Review Process would have on the system
     modernization package pre-certification and approval process.


Pre-Certification and Approval Controls
     Controls over the process for pre-certifying and approving the STARS
     modernization package were not sufficient. The CONOPS stated that the
     Pre-Certification Authority should integrate the DoD certification criteria with
     Component certification criteria for modernization packages costing in excess
     of $1 million. In addition, the DoD certification criteria require compliance with
     applicable laws and regulations. The STARS program was not compliant with
     CCA or FFMIA. In spite of this, it was pre-certified and approved for funding.

            •	 Clinger-Cohen Act of 1996. The STARS Program Management
               Office stated that STARS was compliant with the CCA in the
               certification template workbook, but it could not provide supporting
               documentation for FY 2006 CCA compliance. The DoD certification
               criteria required compliance with the CCA. A review of the FY 2007
               CCA documentation did not provide auditable evidence of
               compliance; therefore, STARS was not CCA-compliant for FY 2006.



                                          7

           •	 Federal Financial Management Improvement Act. The STARS
              Program Management Office stated that STARS was not compliant
              with the FFMIA in the certification template workbook. According to
              the CONOPS, if a program or initiative is not compliant with FFMIA,
              the Component must provide justification for noncompliance. The
              certification template workbook explanation of noncompliance
              referenced the DFAS memorandum “Federal Manager’s Financial
              Integrity Act, Section 4, FY 2003 Report,” May 23, 2003. The
              memorandum stated that agency heads who cannot provide a positive
              statement of assurance in accordance with FFMIA are required to
              submit a remediation plan. DFAS did not prepare a remediation plan
              for FFMIA noncompliance and did not comply with this
              memorandum.

    The approval and pre-certification controls were not adequate because
    USD(AT&L) and DFAS did not follow DoD certification guidance. As a result,
    the STARS modernization package was pre-certified and approved for funding
    without being compliant with all applicable Federal laws, which increases the risk
    of inefficient and ineffective use of resources. To mitigate this risk, USD(AT&L)
    and DFAS should comply with Federal laws and regulations and revise or
    develop guidance that specifies the consequences of noncompliance with IRB
    criteria on the system modernization package pre-certification and approval
    process.


Recommendations, Management Comments, and Audit
  Response
    There are no recommendations in this report. The recommendations in DoD
    Office of Inspector General Report No. D-2008-006, “Automated Time
    Attendance and Production System Compliance with Defense Business
    Transformation System Certification Criteria,” October 26, 2007, addressed the
    issues outlined in this report.

    See DoD Office of Inspector General Report No. D-2008-006 for the discussion
    of management comments and audit response.




                                        8

Appendix A. Scope and Methodology 

   We conducted this performance audit from July 2006 through May 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We performed this audit at the DFAS site in Cleveland, Ohio. We reviewed the
   DFAS Investment Review Process used to approve the obligation of funding for
   FY 2006 STARS modernization efforts. We interviewed members of the DFAS
   Investment Review Working Group, as well as the STARS system manager. We
   also obtained and reviewed DFAS Investment Review Process procedures and
   documentation. Specifically, we reviewed the Pre-Certification Authority
   designation letters, the FY 2006 STARS modernization workbook, and
   supplemental documentation.

   We performed this audit to determine whether STARS was properly certified and
   accredited in accordance with the Defense Business Transformation Systems
   Certification Criteria. The audit was performed from July 2006 through
   February 2007 in accordance with generally accepted government auditing
   standards. Specifically, we:

          •	 interviewed personnel and discussed DFAS Investment Review
             Process policies and procedures at the DFAS Cleveland Program
             Management Office;

          •	 reviewed and analyzed the modernization package documentation
             submitted by DFAS Cleveland to DFAS Headquarters and the
             Executive Steering Group; and

          •	 reviewed and analyzed compliance and the validation of compliance
             with the CCA, DITSCAP, and FFMIA.

   We also reviewed and compared the systems procedures and documentation to the
   following laws and DFAS guidance related to the investment review process.
   Specifically, we reviewed:

          •	 Public Law 108-375 “Ronald W. Reagan National Defense
             Authorization Act for Fiscal Year 2005,” October 28, 2004;

          •	 Public Law 104-208, “Federal Financial Management Improvement
             Act,” September 30, 1996;

          •	 Public Law 104-106, “Clinger Cohen Act,” February 10, 1996;

          •	 DoD Instruction 5000.2, “Operation of the Defense Acquisition
             System,” May 12, 2003;


                                       9

       •	 DoD Instruction 5200.4, “DoD Information Technology Security
          Certification and Accreditation Process,” December 30, 1997;

       •	 DoD Manual 8510.1-M, “DoD Information Technology Security
          Certification and Accreditation Process Application Manual,”
          July 31, 2000;

       •	 Department of Defense, “Investment Review Process Overview and
          Concepts of Operations For Investment Review Boards,”
          May 17, 2005;

       •	 Department of Defense, “Business Systems Investment Review
          Proposal Submission Guideline,” July 15, 2005; and

       •	 “DoD Business Systems Investment Review Process: Investment
          Certification and Annual Review Process User Guidance,”
          April 10, 2006.

We limited the scope to not include a review of the Business Enterprise
Architecture compliance. This limitation did not affect the results of this audit.
We did not review the management control program as it related to the investment
review process because the management control program was not an announced
audit objective.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD; including the
DoD Approach to Business Transformation. This report is relevant to the DoD
Approach to Business Transformation, specifically, DoD Business Systems
Modernization.

Prior Coverage. No prior coverage has been conducted on the Standard
Accounting and Reporting System investment review process during the
last 5 years.




                                    10 

Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Department of Defense, Chief Information Officer

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Combatant Command
  Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Business Transformation Agency
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform


                                          11 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A Marsh
Edward A. Blair
Gregory M. Mennetti
Dwayne A. Coulson
Michael B. Dell, Jr.
Devon R. Houston
Kendall A. Miller
Dea M. Algeo
Celita M. Pomales
Ann L. Thompson
